No. 20-297

 

 

IN THE
Supreme Court of the Anited States

TRANSUNION LLC,

Petitioner,
Vv.

SERGIO L. RAMIREZ,
Respondent.

On Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

BRIEF OF LEGAL SCHOLARS AS
AMICI CURIAE SUPPORTING RESPONDENT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,662 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 10, 2021.

Colin Casey be

Wilson-Epes Printing Co., Inc.
